                                                                        

                                                                    
                                                                            1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                                            PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                                                               MANAGEMENT LETTER
                                                                  AUD-FM-13-09

To the Chief Financial Officer and Inspector General of the U.S. Department of State

Kearney & Company, P.C. (referred to as “we” hereafter), has audited the consolidated financial
statements of the U.S. Department of State (Department) as of and for the year ended
September 30, 2012, and has issued our report thereon dated November 15, 2012.1 In planning
and performing our audit of the Department’s consolidated financial statements, we considered
the Department’s internal control over financial reporting and compliance in order to determine
our auditing procedures for the purpose of expressing an opinion on the consolidated financial
statements and not to provide assurance on internal control. Accordingly, we do not express an
opinion on the effectiveness of the Department’s internal control related to financial reporting
and compliance. We have not considered the Department’s internal control since the date of our
report on the FY 2012 financial statements.

During our audit, we noted certain matters related to internal control over financial reporting and
compliance that we considered to be material weaknesses or significant deficiencies under
standards established by the American Institute of Certified Public Accountants. A material
weakness is a deficiency, or combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness yet
important enough to merit attention by those charged with governance.

Our report on internal control noted one material weakness related to financial reporting. Our
report also described five matters related to internal control that we considered to be significant
deficiencies: Foreign Service National after-employment benefits, property and equipment,
budgetary accounting, unliquidated obligations, and information technology.

Our procedures were designed primarily to enable us to form an opinion on the Department’s
consolidated financial statements and therefore may not have identified all internal control
weaknesses that may exist. However, we would like to use the knowledge we gained during our
audit of the financial statements to provide comments and suggestions that we hope can be useful
to the Department.

Although not considered to be significant deficiencies, we noted certain other matters involving
internal control and operations. These findings and recommendations, which are summarized in
Appendix A, are intended to assist the Department in improving internal control or to result in
                                                            
1
 Independent Auditor’s Report on the U. S. Department of State 2012 and 2011 Financial Statements (AUD-FM-
13-08, Nov. 2012).
                                                

                                         
                                                        1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                        PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



other operating efficiencies. These findings and recommendations have been discussed with
appropriate Department officials. Comments by Department management on this report are
presented as Appendix B.

We appreciate the courteous and professional assistance provided by Department personnel
during our audit. We would be pleased to discuss these comments and recommendations with
the Department.

This letter is intended solely for the information and use of Department management, those
charged with governance, and others within the Department and the Office of Inspector General
and is not intended to be and should not be used by anyone other than these specified parties.




March 5, 2013
Alexandria, Virginia




                                               2
                                                                                                        Appendix A

                                           MANAGEMENT LETTER COMMENTS

COMMENTS REPEATED FROM PRIOR YEAR

During the audit of the U.S. Department of State’s (Department) FY 2011 financial statements,
Kearney & Company, P.C. (referred to as “we” hereafter), identified matters that we reported in
an internal control report1 and a management letter.2 The severity of one issue reported in the
FY 2011 internal control report, calculation of voluntary contributions, had decreased
sufficiently during FY 2012 for us to include the issue in this management letter rather than the
FY 2012 report on internal control. The other findings included in this section were reported in
the FY 2011 management letter. These findings remain open and were updated with information
obtained during the audit of the Department’s FY 2012 financial statements.

I.             General Issue

Untimely Responses to Audit Requests

As part of the financial statement audit, we made requests for data and documentation in order to
validate and substantiate account balances and transactions that support the Department’s
financial statements. In general, the data we requested should have been an integral component
of the Department’s internal control structure and therefore should have been readily available.

The Department did not always provide documentation in a timely manner. As of October 31,
2012, we had issued 1,035 audit requests with due dates prior to November 1, 2012. Of the total
requests, 11 responses had not been received by October 31, 2012. Table 1 provides an overall
summary of the response times for the 1,024 items that had been received.

Table 1. Response Times for Audit Requests
                                                                                                 Received      Received
                                                                Received        Received
                         Total Items                Received                                   Between Two    More Than
                                                               One Week or    Between One
                         Received as                 by Due                                     and Three    Three Weeks
                                                                Less After   and Two Weeks
                        of 10/31/2012                Date*                                     Weeks After    After Due
                                                                Due Date*    After Due Date*
                                                                                                Due Date*       Date*
     Audit
                              1,024                     693       170              58              46            57
     Requests
     Percent                    100                      68        17              6                4             5
*We considered one week to be five business days.

We acknowledge the improvements made by the Department in providing documentation in a
timely manner since FY 2011. Specifically, as of October 31, 2011, only 53 percent of audit
requests had been received by the due date.


                                                            
1
  Independent Auditor’s Report on the U.S. Department of State 2011 and 2010 Financial Statements (AUD/FM-12-
05, Nov. 2011). 
2
  Management Letter Related to the Audit of the U.S. Department of State FY 2011 Financial Statements (AUD/FM-
12-06, Mar. 2012).


                                                                         1
                                                                                  Appendix A

We found that delays in providing documentation were caused by a number of factors. For
instance, we noted that the Department sometimes had difficulties in obtaining information in a
timely manner from overseas posts. We also found that the Department did not initiate action on
requests with long lead times until the due date was approaching. In some cases, the Department
did not respond to, or it provided inadequate responses to, our requests for information until
formal notices of findings and recommendations were provided. Late responses may also be
indicative of inaccurate or incomplete information. Additionally, the Department’s records
management practices were not standardized to properly store and maintain information for
management review.

The inability to produce documentation supporting financial transactions can lengthen processing
times for analyses and reconciliations, as well as increase the possibility of undetected errors.
Delays in providing accurate financial information can lengthen financial reporting cycle times,
which decreases the relevance of financial information to end users. Providing timely and
accurate information to the financial statement auditors could potentially lead to cost savings in
performing the audit.

This issue was initially reported in our FY 2010 management letter.

Recommendation:

We recommend that the Department

         Enhance its procedures to ensure that information is provided to the financial statement
          auditor in a timely manner.
         Ensure that standards for records management and retention are in place and are
          enforced.
         Proactively seek clarity on any unclear audit requests in order to facilitate the most
          efficient and effective means of gathering required documentation.

II.       Fund Balance with Treasury

Insufficient Fund Balance with Treasury Reconciliation Process

Agencies are required to promptly reconcile Fund Balance with Treasury (FBWT) information in
order to identify and resolve differences between the agency financial records and the
Department of the Treasury (Treasury) fund balances. The Department maintains two cash
reconciliation reports: the Global Financial Services-Charleston Cash Reconciliation Report and
the Financial Reporting Analysis (FRA) Cash Reconciliation Report. These reports document
final balances for each Treasury Account Fund Symbol for the applicable accounting period.
Because of the disaggregated nature of the Department’s operations, the FBWT reconciliation
process involves the reconciliation of disbursements and collections processed both domestically
and overseas as well as through third parties.

A suspense account is a temporary account used by agencies to record transactions with
discrepancies until a determination is made on the proper disposition of the transaction. For


                                                  2
                                                                                Appendix A

instance, the Department will record unreconciled differences identified during the FBWT
reconciliation process in a suspense account until the discrepancies are resolved. Treasury allows
entities with a justifiable business need to submit a request to use suspense accounts, which are
only to be used as a temporary holding place for transactions that must be cleared within 60 days.
The Department received a waiver from Treasury for continued use of its suspense accounts.

We obtained and reviewed the FRA Cash Reconciliation Report as of September 30, 2012, and
identified 54 instances in which a variance existed between Treasury and Department fund
balances. These variances amounted to a net difference of approximately $12.7 million.
However, when the absolute value of all variances was considered, the variance totaled
approximately $60.8 million.

We also found that the Department had balances in several suspense accounts that had not been
researched and resolved within 60 days as required. Specifically, we identified 10 suspense
accounts in which the balance remained unchanged during FY 2012.

The Department reconciled disbursements and collections at the transaction level monthly;
however, the Department did not investigate and resolve all variances because the Department’s
policy required that variances be investigated only if the net aggregate variance was more than
2 percent of the total amount of FBWT. The Department did not consider the absolute value of
the variances in this threshold. In addition, the Department did not have a complete history of
transactions that it could compare with Treasury information, as data from previous financial
systems were not available to the staff performing the reconciliations. These data restrictions
continued to prevent the Department from fully reconciling the FBWT account. The Department
also did not have appropriate controls in place to ensure all suspense activity was researched and
resolved within the required 60 days.

Failure to implement timely and effective reconciliation processes could

      Increase the risk of fraud, waste, and mismanagement of funds.
      Affect the Government’s ability to effectively monitor budget execution.
      Affect the Department’s ability to accurately measure the full cost of its programs.
      Result in violations of the Antideficiency Act.
      Result in erroneous financial statements.

Because the Department performed its reconciliation based on net value rather than absolute
value, the Department could significantly understate the total outstanding FBWT variance. In
addition, by not resolving suspense account activity within the required 60 days, the Department
was not in compliance with Treasury requirements.

This issue was initially reported in our FY 2009 management letter.

Recommendation:

We recommend that the Department enhance its Fund Balance with Treasury (FBWT)
reconciliation process by


                                                3
                                                                                    Appendix A


          Identifying older reconciling items and taking the appropriate actions to clear these items.
          Modifying its internal reconciliation policy to require that the absolute value of variances
           be considered rather than the net value and applying the 2 percent threshold for
           investigating variances at individual fund levels rather than at the FBWT level.
          Researching and resolving all balances in suspense accounts within 60 days.

III.       Accounts Payable

Inaccurate Liability Calculation for Certain Voluntary Contributions

The Department provides discretionary financial assistance, called voluntary contributions, to
foreign countries, public international organizations, international societies, commissions, and
other international organizations. The Bureaus of International Organization Affairs and
Population, Refugees and Migration are responsible for the majority of voluntary contributions
within the Department.

Federal agencies should record a liability for all amounts owed as of the financial statement date,
including amounts owed for voluntary contributions. In addition, Federal agencies should record
an advance for all funds provided for voluntary contributions that have not been expended by the
recipient.

During FY 2012, the Department implemented a process to identify advances or liabilities
related to voluntary contributions. We reviewed disbursements made during October 2012 and
concluded that the liability estimate was reasonable. However, the Department did not recognize
funds that had been advanced to one of the Department’s largest recipients of voluntary
contributions, the United Nations High Commissioner for Refugees (UNHCR). During our
analysis of supporting documentation received from UNHCR, the organization indicated that it
maintained a 1- to 2-month surplus of funds. Based on this information, the Department should
have recorded an advance amount.

The majority of voluntary contributions are made to a small number of international
organizations. The Department reviewed agreements and disbursement patterns over the
previous three fiscal years and requested additional information from selected organizations to
determine an amount to record for advances and liabilities related to voluntary contributions. The
Department concluded that because UNHCR had stated that the payments received were used
only for immediate needs, neither a liability nor an advance existed as of the end of the fiscal
year. However, UNHCR also stated that it had maintained a surplus of funds. The Department
did not follow up with the organization to determine whether an advance should have been
estimated and recorded for UNHCR.

Based on the results of our audit, the Department made an adjustment of approximately
$67 million to correct the amount of voluntary contributions that was not recorded as an advance
in its financial statements.

This issue was initially reported in our FY 2011 Report on Internal Controls.


                                                    4
                                                                                  Appendix A


Recommendation:

We recommend that the Department continue to strengthen its voluntary contribution estimation
process. Specifically, the Department should

         Ensure that recipients of voluntary contributions understand the requests for information
          made by the Department to determine a liability or advance, such as clearly explaining
          key terms such as disbursement, expense, and immediate need.
         Validate the estimation methodology annually using actual data to confirm the predictive
          reliability of the methodology.
         Document and maintain support for the data and assumptions used to develop the
          voluntary contributions liability or advance estimate. The documentation should be
          sufficient and available to facilitate a review of the Department’s assumptions and
          conclusions.

IV.       Payroll

Inadequate Control Over Personnel Records and Actions

The Department has almost 30,000 full-time employees located domestically and overseas,
including Civil Service, Foreign Service, and Foreign Service National (FSN) staff. Civil Service
and Foreign Service employees are paid according to standard Federal Government pay scales
using the Consolidated American Payroll Processing System (CAPPS). FSN employees are
generally paid in local currency, and their salary and benefits are based on local prevailing
practice, which is documented in each post’s local compensation plan. FSN employees are paid
using the FSN Payroll system.  

Ensuring the sufficiency of controls over personnel-related activities is a key responsibility of
managers. We identified control deficiencies related to maintaining personnel records,
processing personnel actions and calculating benefits, and processing employee separations.
This issue was initially reported in our FY 2009 management letter.

Insufficient, Inconsistent, or Incorrect Personnel Record Documentation

The Office of Personnel Management requires agencies, including the Department, to maintain
up-to-date, complete, and correct personnel records for each employee. These personnel folders
should include all benefit election forms, as well as any elections resulting in deductions to an
employee’s pay. In addition, the Department is required to review time and attendance (T&A)
submissions for accuracy. Maintaining up-to-date personnel folders and reviewing T&A
submissions for accuracy help ensure that employees are compensated only for actual hours
worked and benefits earned.

To verify the accuracy of Civil Service and Foreign Service employee salaries and benefits, we
assessed the completeness of personnel records for a sample of 78 employees. We noted the
following discrepancies during our testing:


                                                  5
                                                                               Appendix A


      Five employee timesheets were not provided.
      Four Request for Leave or Approved Absence Forms (Standard Form [SF]-71) were not
       provided.
      Four Life Insurance Election Forms (SF-2817) were not provided.
      Two Health Benefits Election Forms (SF-2809) were not provided.
      Seven Thrift Savings Plan election forms were not provided.
      In one instance, the sick leave hours reported on the SF-71 did not match the employee’s
       sick leave hours on the Earnings and Leave Statement.
      In two instances, the Federal Employees’ Group Life Insurance election selected on the
       SF-2817 did not match the election on the employee’s Notification of Personnel Action
       (SF-50).
      In one instance, the election selected on the Thrift Savings Plan election form did not
       match the election on the employee’s Earnings and Leave Statement.

As part of our contractual agreement with OIG, we chose an additional 35 employees for testing
to assist the Office of Personnel Management in its financial statement audit. We noted the
following discrepancies during our testing:

      Three SF-2817s were not provided.
      In two instances, the optional Federal Employees’ Group Life Insurance elections on the
       SF-2817 did not match the elections on the SF-50.

The Department did not sufficiently oversee and review the documentation maintained in
personnel files and T&A reports. Poor administrative control over the payroll cycle and lack of
sufficient and updated supporting documentation in the Official Personnel File may lead to errors
in employee pay, improper benefit elections, or increased benefit costs. Incomplete personnel
records prevent the timely receipt of sufficient and accurate documentation when requested and
hinder the prompt identification and remediation of errors.

Improper and Untimely Processing of Personnel Actions and Incorrect Benefit Calculations

The Department processes personnel actions when an employee is hired by the Department or an
existing employee has a change in personnel status. These personnel actions are documented
either on the SF-50 or on the Joint Form (JF) 62A (Personal Services Contracting Action). In
addition, each pay period employees accrue leave benefits based on guidance issued by the
Department or post.

We selected a sample of 78 payroll disbursements and 45 new hire personnel actions from
CAPPS and 80 payroll disbursements and 50 new hire personnel actions from FSN Payroll to
test controls over T&A, personnel actions, and hiring. For each of the sample items selected, we
reviewed the SF-50 for proper and timely approvals. Additionally, for the sample items selected
for T&A testing, we reviewed timesheets for proper approval and accurate processing. We also
verified that the pay and benefit amounts were properly calculated and accrued.




                                                6
                                                                                 Appendix A

During our testing of the CAPPS transactions, we noted the following:

      Eleven of 78 personnel actions in our payroll disbursement sample were not approved in
       the pay period following the effective date on the personnel action.
      One of 78 employees in our payroll disbursement sample elected health benefits using the
       SF-2809; however, no amounts were deducted or withheld from the employee’s pay.
      Eight of 45 personnel actions in our new hire sample were not approved in the pay period
       following the effective date on the personnel action.

During our testing of the FSN Payroll transactions, we noted the following:

      Seventeen of 80 personnel actions in our payroll disbursement sample were not approved
       in the pay period following the effective date on the personnel action.
      One of 80 personnel actions in our payroll disbursement sample did not contain the date
       that the Human Resource Officer approved the personnel action. As such, we were
       unable to verify that the approval occurred prior to the effective date.
      Eight of 80 employees in our payroll disbursement sample were accruing annual or sick
       leave benefits at a rate inconsistent with the local compensation plan.
      One of 50 personnel actions in our new hire sample was not approved in the pay period
       following the effective date on the personnel action.

Each bureau and post had been delegated the authority to approve personnel actions and enter the
information into the personnel system. We found that bureaus and posts were processing
personnel actions inconsistently. The Department did not have a centralized process to ensure
that bureaus and posts were approving employee actions and entering the information into the
personnel system in a timely manner.

In addition, each post had been delegated authority to establish annual and sick leave policies for
FSN employees. These policies were documented in the post-specific local compensation plan.
We found that data used to process leave accruals was not always input into the FSN Payroll
system correctly at the Department’s Financial Service Centers. In addition, controls were not
consistently in place at posts to ensure that the proper leave accrual rate was being applied.

The potential for improper payments exists if personnel actions are not processed properly or
timely, and the potential for improper leave accruals exists when incorrect rates are entered into
the payroll system. In addition, the lack of proper oversight of personnel actions may result in
errors remaining undetected and uncorrected for long periods of time. Untimely personnel
actions are often processed retroactively, leading to supplemental payments being processed
manually and increasing the risk of human error and decreasing efficiency.

Improper and Untimely Processing of Separation Personnel Actions

When an employee separates from the Department because of resignation, retirement, or death,
the Department processes personnel actions to document the employee’s personnel status. These
personnel actions are documented either on the SF-50 or on the JF-62A.



                                                 7
                                                                               Appendix A

We selected a sample of 45 personnel actions for separations from CAPPS and 35 personnel
actions for separations from FSN Payroll to determine whether the employees were removed
from payroll, T&A, and personnel systems in a timely manner. We also verified that the
personnel action was approved by the pay period following the proposed separation effective
date.

During our testing of CAPPS transactions, we noted that

      16 of 45 employees were not deactivated in the personnel system in the pay period
       following the separation effective date on the personnel action.
           o 3 of 16 employees not deactivated timely were paid incorrectly after the
               separation effective date on the personnel action.
      15 of 45 personnel actions were approved after the pay period following the proposed
       separation effective date.

During our testing of FSN Payroll transactions, we noted that

      6 of 35 personnel actions were approved subsequent to their effective dates.

Each bureau and post had been delegated the authority to approve personnel actions and enter the
information into the personnel system. We found that bureaus and posts were processing
personnel actions inconsistently. The Department did not have a centralized process to ensure
that bureaus and posts were approving employee separations and entering the information into
the personnel system in a timely manner.

The potential for improper payments exists if personnel actions are not processed properly or in a
timely manner. We noted that three of the employees we tested were paid incorrectly after their
separation dates. In addition, the lack of proper oversight of personnel actions may result in
errors remaining undetected and uncorrected for long periods of time. Untimely personnel
actions are often processed retroactively, which increases the risk of human error and decreases
efficiency.

Recommendation:

We recommend that the Department strengthen controls over personnel records and actions.
Specifically, the Department should

      Strengthen monitoring procedures that will ensure bureaus and posts are complying with
       policies for timely processing and appropriately approving personnel actions, including
       periodic reviews of documentation.
      Develop procedures to monitor employees’ biweekly benefit amounts and ensure that the
       data used to calculate these amounts are accurate.
      Develop a process to conduct periodic reviews over personnel records.
      Institute mandatory training sessions on controls over personnel records for employees
       who process personnel actions and increase accountability for employees who process
       personnel actions at the bureaus and posts.


                                                8
                                                                               Appendix A

V.     Accounts Receivable

Lack of Validation and Monitoring Controls Over Aged Unbilled Federal Accounts
Receivable

Unbilled accounts receivable (AR) arise as revenue is recognized for services rendered that
exceed the amounts that have been billed. The Department enters into reimbursable agreements
with other Federal entities to agree to terms, conditions, and costs for services to be provided.
Unbilled Federal AR transactions are created through the normal course of business when
administrative timing issues exist; however, these transactions are also generated when necessary
billing information is unavailable or when the cost of services exceeds the reimbursable
agreement and the customer is not willing or is unable to cover those costs. According to
Department policy, receivables over 90 days old are considered past due and should be escalated
for further review.

We identified unbilled Federal AR amounting to $593 million on the Department’s
September 30, 2012, trial balance. Although the Department’s policy is to process undisputed
bills for payment within 15 business days or resolve disputes within 30 days, we found that $77.9
million of the $593 million in unbilled Federal AR was over 6 months old, as shown in Table 2.

         Table 2. Aging of Unbilled Federal Accounts Receivable Over 6 Months Old
                                                Number of               Amount
                    Time Period
                                               Transactions           (in millions)
                    Over 3 years                   440                            $33.9
                Between 2 and 3 years               91                               5.0
                Between 1 and 2 years              173                              15.5
             Between 6 months and 1 year           126                              23.5
                Total Over 6 Months                830                            $77.9

These transactions, some of which date back to FY 2002, were identified either as being
collectible or as pending further research by the Department.

The Department had implemented a quarterly process to review significantly aged unbilled AR,
which the Department defined as any unbilled AR more than 1 year old. Each quarter, staff in the
Bureau of Budget and Planning assessed whether the significantly aged unbilled AR were valid
and communicated this information to the Bureau of the Comptroller and Global Financial
Services. The Bureau of the Comptroller and Global Financial Services should write off any
transaction identified as invalid. However, we found that the majority of the AR reviewed during
this process were identified as “pending further research.” Although the Department had a
process in place, the control was not being executed effectively, and as a result, aged AR were
not being resolved in a timely manner. Further, Department officials were hesitant to write off
aged AR, even aged AR from years in which the funding had expired, as the officials believed
these AR may still be able to be collected.




                                               9
                                                                                   Appendix A

In addition to the review process, the Department planned to take other actions to address the
significantly aged unbilled AR. For instance, the Department anticipated including local guard
services at post in the International Cooperative Administrative Support Services agreements
with other agencies at posts by FY 2013. Because the local guard agreements are a common
category of unbilled AR, this arrangement should decrease the number of unbilled AR in the
future.

We also found that some of the unbilled AR occurred because the Department did not have the
correct billing information for other agencies. The Department planned to review new
reimbursable agreements, which have the potential to result in unbilled AR, and coordinate with
the respective agency to ensure that accurate fiscal information for submitting bills is obtained
prior to executing the agreement. In addition, the Department planned to write off unbilled AR
from before 2007 once additional research was completed. As of September 30, 2012, the
Department had not fully implemented these corrective actions.

The collection of outstanding AR represents a source of funds for an organization. By not
managing aged unbilled AR in a timely and effective manner and not ensuring that new
agreements contained the correct billing information, the Department was not collecting funds
from other Federal agencies that it could use for Department priorities. The chance of collecting
a receivable decreases the longer the receivable remains outstanding. Additional administrative
efforts are needed to track and validate the items that have remained outstanding for a long
period. In addition, by not identifying which unbilled AR items are uncollectible, the Department
is overstating its assets in its financial statements.

This issue was initially reported in our FY 2011 management letter.

Recommendation:

We recommend that the Department continue to strengthen controls to ensure unbilled accounts
receivable are valid and resolved in a timely manner. Specifically, the Department should

         Research and resolve all aged unbilled accounts receivable that are deemed “pending
          further research.”
         Develop a process to ensure reimbursable agreements are not executed without correct
          fiscal billing information.
         Take action to either collect aged unbilled accounts receivable or write off items that are
          not collectible.

VI.       Revenue

Inadequate Controls Over Machine Readable Visa Fee Analysis

The Bureau of Consular Affairs (CA) is responsible for issuing non-immigrant visas, referred to
as Machine Readable Visas (MRV), to foreign nationals at embassies and consulates. CA
encourages posts to collect the MRV fees offsite to limit the Department’s cash collection
responsibilities. Posts must maintain proper internal controls to ensure that the offsite locations


                                                   10
                                                                                 Appendix A

properly execute their duties on behalf of the Department by collecting fees when issuing MRV
fee receipts and remitting all fees collected to the Department. To achieve this objective, CA
directs each post to perform, at least weekly, an MRV fee analysis by comparing the fees
collected with the number and type of services provided, as identified by records other than the
fee receipts. The MRV fee analysis should ensure the cumulative amount of fees collected by the
offsite location meets or exceeds the cumulative number of MRV applications processed by the
post. The collections made at offsite locations directly affect revenue reported by the
Department.

We tested the operating effectiveness of the weekly MRV fee analysis during FY 2012 at eight
posts and noted exceptions at six posts. Specifically, as of May 2012, Embassy Seoul, Korea, had
not completed its MRV fee analysis for March or April 2012. We also found that while a
supervisory review was being conducted at this post, the review was not documented or
evidenced on the weekly analysis. In addition, we noted instances of cumulative deficits at five
other posts tested (Ottawa, Canada; Tokyo, Japan; Lima, Peru; Kingston, Jamaica; and Tel Aviv,
Israel). Cumulative deficits occur when the cumulative number of fees collected is less than the
cumulative number of visa applications processed. As of June 30, 2012, Embassy Ottawa had 22
weeks of cumulative deficits, and Embassy Lima had 13 weeks of cumulative deficits.

During FY 2012, CA took steps to improve the MRV fee analysis performed at posts by
establishing and implementing a centralized review within its Office of the Comptroller. In
July 2012, CA implemented a Sharepoint site in which posts would submit their weekly MRV
fee analysis. The centralized review ensured that posts were completing the analysis and
reviewing deficit balances. However, prior to implementing this centralized review, CA had no
control in place to ensure that posts were completing the analyses accurately and in a timely
manner.

While the centralized review procedures have improved the oversight of the fee analysis, control
design issues have contributed to the cumulative deficits at posts. The Consular Consolidated
Database tracked the visa workload counts for each post and was the source of the workload data
for completing the analysis. However, the Consular Consolidated Database reports were neither
standardized nor consistent across each post. CA officials stated that the reports used by posts for
workload counts may have included the same visa applicant multiple times because of temporary
visa application refusals. Although visa applicants paid the fee once, they were potentially
included in the workload reports each time an application refusal was processed.

Without proper controls, cash collected at offsite locations could be misappropriated and not be
deposited into the Department’s accounts. In addition, the Department may not be able to detect
inaccuracies in the amounts recorded for MRV fee collections.

This issue was initially reported in our FY 2011 management letter.




                                                11
                                                                                Appendix A

Recommendation:

We recommend that the Department

       Continue monitoring the Machine Readable Visa fee analyses prepared by posts and
        investigating the sources of cumulative deficits.
       Develop standardized Consular Consolidated Database reports that properly identify
        unique applicants.

NEWLY IDENTIFIED COMMENTS

During the audit of the Department’s FY 2012 financial statements, some additional matters
came to our attention that had not been reported in the FY 2011 internal control report or
management letter.

VII.    Parent/Child Transactions

Insufficient Oversight of Financial Information Provided by the U.S. Agency for
International Development

The Department receives funds through appropriation legislation. In some cases, these
appropriated funds are required to be transferred to another agency for programmatic execution.
Despite transferring these funds, referred to as “child funds,” to another agency, the Department
maintains responsibility for reporting on their use and status in its annual financial statements.
The U.S. Agency for International Development (USAID) receives a significant amount of child
funds from the Department. Each quarter, USAID provides the Department with balances from
its general ledger for inclusion in the Department’s financial statements.

USAID’s OIG has reported a longstanding material weakness related to the reconciliation of
FBWT, which would include the child funds from the Department. Specifically, USAID has
been unable to successfully reconcile the FBWT amount in the general ledger with the fund
balance amount reported by Treasury or to its own subsidiary ledger. In FY 2012, USAID
performed an analysis to quantify the differences between the three amounts and recorded
adjustments so the Treasury and general ledger amounts equaled the amount recorded in
USAID’s subsidiary ledger. USAID also analyzed differences between the Advance amounts
recorded in the general ledger and subsidiary ledger and adjusted the general ledger amounts to
match the subsidiary ledger. The impact these adjustments would have had on the Department’s
financial statements s shown in Table 3.
 




                                                12
                                                                               Appendix A

       Table 3. Impact of Adjustments From the U.S. Agency for International
       Development on the Department’s Financial Statements
                                                                           Adjustments
              Financial Statement                   Line Item
                                                                           (in Millions)
                                                    FBWT                           $(95.3)
                 Balance Sheet                     Advances                          167.0
                                            Unexpended Appropriations               (71.7)
                                                    Outlays                           96.3
        Statement of Budgetary Resources
                                               Unpaid Obligations                   (96.3)
                                                   Expenses                           (72)
             Statement of Net Costs
                                                   Revenues                            $72

USAID was unable to identify the specific transactions that caused the differences or to
determine the root cause of the unreconciled items. In November 2012, USAID informed the
Department that it had identified an issue with the methodology it used to calculate the
adjustments and stated that the adjustments might be reduced once it had an opportunity to refine
its process.

The Department relied on USAID to report accurate balances; however, the amounts provided by
USAID included adjustments that were not supported. The Department did not have an effective,
routine process to ensure that amounts reported by USAID were complete and accurate. The
Department did not have an effective way to communicate with USAID to obtain information
regarding the amounts reported.

USAID may have recorded inaccurate or unsupported adjustments that went undetected by the
Department. Inaccurate adjustments could result in a material misstatement in the Department’s
financial statements. The Department reversed the USAID adjustments during the preparation of
its FY 2012 financial statements.

Recommendation:

We recommend that the Department

      Work collaboratively with the U.S. Agency for International Development (USAID) to
       determine what, if any, adjustments are needed to resolve the differences in Fund Balance
       with Treasury and Advances between the Department of the Treasury and USAID’s
       general and subsidiary ledgers and adjust the balances as appropriate.
      Expand the process used to perform analytical procedures over the balances reported by
       USAID and inquire about significant changes to account balances.
      Develop a communication protocol for obtaining accounting information for child funds
       from USAID, including a requirement that USAID should provide supporting
       documentation for adjustments to Department funds over an agreed-upon materiality
       threshold, and specific documentation standards for adjustments recorded to Department
       funds.



                                               13
                                                                                Appendix A


VIII.   Required Supplementary Information

Inadequate Process To Identify and Measure Deferred Maintenance

The Department occupies government-owned or long-term leased real properties at more than
270 overseas locations. The Department also owns several pieces of domestic real property,
including the National Foreign Affairs Training Center in Arlington, Virginia; the International
Center in Washington, D.C.; the Financial Services Center in Charleston, South Carolina; the
Information Management Center in Beltsville, Maryland; and the Florida Regional Center in
Ft. Lauderdale, Florida. The Department also owns consular centers in Charleston; Portsmouth,
New Hampshire; and Williamsburg, Kentucky.

The Department did not have a process in place to measure and report deferred maintenance for
domestic properties. Although the Department used a condition assessment survey to evaluate
property conditions and determine the repair and maintenance requirements for its overseas
buildings, we identified over 50 overseas deferred maintenance items, amounting to
approximately $9 million (12 percent of the amount reported by the Department for deferred
maintenance), that did not, according to the items’ descriptions, meet the definition of deferred
maintenance. For instance, the description of some of the items appeared to relate to
improvements or upgrades rather than to maintenance.

According to Department officials, the Department receives sufficient funding for domestic
maintenance and repairs. The officials did not believe that any domestic deferred maintenance
could exist. Although the Bureau of Overseas Buildings Operations had developed a process to
identify maintenance and repair needs overseas, the process did not always adequately
differentiate maintenance and repairs from upgrades.
Without a process to review the condition of domestic real properties and sufficiently estimate
deferred maintenance and repairs for overseas properties, the information in the Department’s
Agency Financial Report may be incomplete or inaccurate.

Recommendation:

We recommend that the Department strengthen controls to ensure that deferred maintenance is
accurately identified and measured. Specifically, the Department should

       Develop and implement a process to measure and report on deferred maintenance for
        domestic properties.
       Improve the process for identifying deferred maintenance for overseas properties to
        ensure that only deferred maintenance items are reported.




                                                14
KEARNEY&
COMPANY                                                                                              Appendix B



                                                                        UnHl.:d   SI;Jh:~   Department or Slale
                                                                        ( 'Olllflfrollcr
                                                                        IYIIY 01'<"" 11.'11111'
                                                                        ("h,"/n/wl. W _'941!5

                                                                        FEB 2 0 Z013
       UNCLASSIFIED

       M EMOKAN I> UM

       TO:             QIG - 113fT) W, Geisel

       FROM:           CGFS - Jam;,.'S L. MiIlCUC'(\.

       SU BJECT:       Draft M[lnDgement Leller Rellued \0 the Audit orlhe Department OrSlalc'~ Fiscal
                       Year (FY) 2012 I-inancial Statements

               This is in response \0 )our f\.'qUCSI for comlllents on the Independent Auditor's Draft
       Management Lcu("r (Lcll<.'r) related to the alldil of lhe Department ofSlalc's (Department)
       FY 2012 Finane!1I1 Stillcmcnls.

               The Department concur.; in cOllcepl \\llh the leiter's ,,:commendations. We belie\l: the
       Lcllcr identifies areas wht:rc processes and internal controls can be strengt hened to improve the
       Department's fimmc ial reponing :md operations. We will work collaoomtivcly und
       constructively with you r office lind Keanley & Company on the recommendations identified in
       the Leller 10 implement improvcments and address these mailers, As we work with Kearney to
       idcntify the IlL'CdL'ti oorr~ li ve actions. we may propose alternati\'c mcnns to address thc spirit of
       the rL'Conllllendations \'crsus the spL'Cific recommendations proposed in the Leller. We mllY also
       identify s ituations v. here lIle cost to implement a spL'Cilic part of a recommendation may exceed
       the proje<:ted benefit. Regnrdless. wc are committed 10 build on lIle pro~ress made over the last
       ),Cllr.

              We thank )OU for the opportunity to comment on the drafl Lcner. We would also like to
       extend our npprL'Ciation to }our stufl" and to Keumey & COIllJXIflY for the profession:.l (Itld
       eollabor3tive manner in '" hich they conduetL-d the audit. We believe considerable progress was
       made over the past ) car. ~pt.'Cially relnted to the J)cpanment's {inanci;!l reporting of aficr·
       employment benefits for LES we employ around the world. as II result of the eollabor3tive
       manner in which the audit was conducted.

       cc:     1\,1 - VIS Patrick I' . Kennedy
               DIG/AUD - Ms. Evelyn Klemsline
               Keamc) & Company. I'.C. - Mr, Jeffrey W. Green
               CGFSDCI'O - Christopher \-1. Flaggs
               CGFS/ EX Phillip J. Schlaner




                                                  t JNC LASSlflED




 



                                                          1
